U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


    ENVIRONMENTAL PROTECTION
         AGENCY GRANTS,
   DEPARTMENT OF PUBLIC WORKS,
 GOVERNMENT OF THE VIRGIN ISLANDS

              REPORT NO. 00-I-696
               SEPTEMBER 2000
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL



                     Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           H OT LI N E
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
